July 10, 2001

ALFRED INIGUEZ
ACTING VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT:        Audit Report - Assessment of Management Oversight
                of Administrative Leave Used in Los Angeles and San Diego
                (Report Number LC-AR-01-008)

This report presents the results of our audit of the Postal Service’s oversight of other
paid administrative leave used in the Los Angeles and San Diego Districts (Project
Number 00JA005LC000). The objective was to determine whether management
authorized other paid administrative leave in accordance with Postal Service policies
and procedures.

Our audit disclosed that management oversight of other paid administrative leave needs
improvement in the Los Angeles and San Diego Districts. The audit revealed that 25 of
31 employees, whose administrative leave records we reviewed, remained on other
paid administrative leave beyond the time period required by bargaining agreements,
and were paid over $249,000 during this period. Also, leave slips documenting
approval were either incomplete or missing for 30 of the 31 employees. As a result,
management lacked the required documentation to show that the leave taken was
authorized. We recommended that the acting vice president, Pacific Area Operations,
clarify policies and procedures for administering and overseeing administrative leave
use and ensure that leave slips are accurately completed for all leave taken.

Management concurred with our recommendations and agreed that the administration
and monitoring of administrative leave can be improved in both districts. Management’s
planned or implemented actions are responsive to the recommendations and address
the issues identified in the report. Management’s comments and our evaluation of their
comments are included in the report.
We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions, please contact Bennie M. Cruz, director, Labor Management,
at                  , or me at (703) 248-2300.             (b) (6)



Ronald K. Stith
Assistant Inspector General
 for Oversight and Business Evaluations

Attachment

cc: Patrick R. Donahoe
    Suzanne F. Medvidovich
    Richard J. Strasser, Jr.
    Donna M. Peak
    John E. Platt
    Jayne E. Schwarz
    Kerry L. Wolny
    John R. Gunnels
Assessment of Management Oversight of Administrative            LC-AR-01-008
 Leave Used in Los Angeles and San Diego


                                  TABLE OF CONTENTS

Executive Summary                                                   i

Part I                                                              i

Introduction                                                       1

   Background                                                      1
   Objective, Scope, and Methodology                               2
   Prior Audit Coverage                                            2

Part II

Audit Results                                                      3

   Management Oversight Needs Improvement                          3
   Employees on Administrative Leave                                3
   Recommendations                                                 9
   Management’s Comments                                           10
   Evaluation of Management’s Comments                             10

   Leave Slips Were Incomplete or Missing                          12
   Recommendation                                                  13
   Management’s Comments                                           13
   Evaluation of Management’s Comments                             13

Appendix. Management’s Comments                                    14




                                       Restricted Information
Assessment of Management Oversight of Administrative                             LC-AR-01-008
 Leave Used in Los Angeles and San Diego


                                 EXECUTIVE SUMMARY
Introduction                 This report presents the results of our audit of Postal
                             Service management oversight of other paid administrative
                             leave used in the Los Angeles and San Diego District
                             Offices. The objective of the audit was to determine
                             whether management authorized other paid administrative
                             leave in accordance with Postal Service policies and
                             procedures. This report was initiated as a result of
                             information provided by a Postal Service official who stated
                             that a Los Angeles employee was on other paid
                             administrative leave for over 3 years.

Results in Brief             Our audit disclosed that management oversight of other
                             paid administrative leave needs improvement in the Los
                             Angeles and San Diego Districts. Twenty-five of thirty-one
                             employees remained on other paid administrative leave
                             beyond the time period required by bargaining agreements
                             and were paid over $249,000 during this time. Management
                             left employees on other paid administrative leave because
                             (1) management believed any disciplinary actions would be
                             appealed to the Merit Systems Protection Board,
                             (2) responsibility for monitoring was unclear, and
                             (3) management did not use available tools to monitor
                             administrative leave use.

                             In addition, we found that leave slips documenting approval
                             were either incomplete or missing for 30 of the
                             31 employees. Management did not comply with time and
                             attendance policy and procedures. As a result,
                             management lacked the required documentation to show
                             whether administrative leave taken by the employees was
                             authorized.

Summary of                   To improve oversight and reduce the use of other paid
Recommendations              administrative leave, we recommend that the acting vice
                             president, Pacific Area Operations, clarify policies and
                             procedures for administering and overseeing administrative
                             leave and ensure that leave slips are accurately completed
                             for all leave taken.




                                                  i
                                       Restricted Information
Assessment of Management Oversight of Administrative                              LC-AR-01-008
 Leave Used in Los Angeles and San Diego




Summary of                   Management concurred with all recommendations. They
Management’s                 agreed to remove employees, as appropriate, from
Comments                     administrative leave, develop policies for overseeing
                             administrative leave, use available tools to monitor leave,
                             and ensure that leave slips are properly completed.

                             Management also committed to ensuring there was a sound
                             business reason for having any employee on administrative
                             leave beyond 30 days. Management’s comments in their
                             entirety are included as an appendix to this report.

Overall Evaluation of        Management’s planned actions are responsive to the
Management’s                 recommendations in this report.
Comments




                                                  ii
                                       Restricted Information
Assessment of Management Oversight of Administrative                                                  LC-AR-01-008
 Leave Used in Los Angeles and San Diego


                                             INTRODUCTION
Background                        The Employee and Labor Relations Manual and the Time
                                  and Attendance Handbook F-21 define administrative leave
                                  as absence from duty authorized by appropriate Postal
                                  Service officials without charge to annual or sick leave and
                                  without loss of pay. Granting administrative leave is
                                  permitted for reasons/events noted in the Employee and
                                  Labor Relations Manual. These reasons/events include:

                                     •   Acts of God
                                     •   Civil Disorders
                                     •   Civil Defense
                                     •   Voting and Registration
                                     •   Blood Donations
                                     •   Funeral Services
                                     •   Postmaster Conventions and Organization Business
                                         Relocation

                                  Other paid administrative leave is a type of administrative
                                  leave authorized by management for reasons other than
                                  those mentioned above.

National Administrative           According to Postal Service data,1 6,490 employees were
Leave Use                         on administrative leave in the “Other Paid Administrative
                                  Leave” category postal-wide for periods ranging from 20 to
                                  618 days between January 1998 and July 2000 at a cost of
                                  $44 million dollars. The table below identifies the number of
                                  employees within specific ranges of time.

                                        Employees on Other Paid Administrative Leave
                                         Postal-wide (January 1998 through July 2000)
                                           Number of      Range of Days
                                                                            Amount Paid
                                           Employees        on Leave
                                                25          300 – 618         $ 1,519,867
                                              231           125 – 299            6,240,703
                                            3,427            31 – 124           27,199,912
                                            2,807            20 – 30             9,801,038
                                   Total    6,490                             $44,761,520




1
 The Office of Inspector General’s (OIG’s) Computer Assisted Audit Techniques group extracted data from the
Postal Service payroll data files of employees who were on administrative leave for 160 hours (20 days) or more.



                                                         1
                                              Restricted Information
Assessment of Management Oversight of Administrative                                                 LC-AR-01-008
 Leave Used in Los Angeles and San Diego




Objective, Scope, and            Our overall objective was to determine whether
Methodology                      management authorized other paid administrative leave in
                                 accordance with Postal Service policies and procedures.
                                 To meet our objective, we reviewed Postal Service
                                 disciplinary and time and attendance policies and
                                 procedures. We also interviewed district managers, Human
                                 Resource managers, labor relations managers and
                                 specialists, timekeepers, and supervisors.

                                 To identify employees who were in the other paid
                                 administrative leave category between January 1998 and
                                 July 2000, the OIG’s computer assisted audit techniques
                                 group extracted data from the Postal Service payroll data
                                 files. The data extracted showed that 1,704 employees in
                                 the Los Angeles and San Diego Districts were in the other
                                 paid administrative leave category between January 1998
                                 and July 2000. Of the 1,704 employees 83 were on other
                                 paid administrative leave for more than 30 days.2

                                 We focused our review on 313 of the 83 employees because
                                 they were assigned to five work facilities that collectively
                                 represented more than 50 percent of the cost paid to the
                                 83 employees. For the 31 employees, we reviewed leave
                                 slips and labor relations personnel files.

                                 We performed our audit from August 2000 through
                                 July 2001 in accordance with generally accepted
                                 government auditing standards and reviewed internal
                                 controls as were considered necessary to fulfill the audit
                                 objective. We discussed the conclusions and observations
                                 with management officials and included their comments,
                                 where appropriate.

Prior Audit Coverage             No prior audits conducted within the last 5 years were found
                                 addressing our audit objective.




2
  Collective Bargaining Agreements allow for the use of other paid administrative leave during a 30-calendar day
notice period (which consists of 4 weeks). We focused on employees who received paid administrative leave for
more than 6 weeks, 2 weeks longer than the 30-calendar day period required.
3
  Of the 31 employees, 20 were assigned to the Los Angeles District and 11 were assigned to the San Diego District.



                                                         2
                                              Restricted Information
Assessment of Management Oversight of Administrative                                               LC-AR-01-008
 Leave Used in Los Angeles and San Diego


                                           AUDIT RESULTS
Management                       Management oversight of other paid administrative leave
Oversight Needs                  (administrative leave) needed improvement in the Los
Improvement                      Angeles and San Diego Districts. Management allowed
                                 employees to remain on administrative leave beyond time
                                 periods required by bargaining agreements and did not
                                 ensure that leave slips were accurately completed for all
                                 leave taken.

                                 Postal Service Collective Bargaining Agreements with
                                 employee unions provide guidance for use of administrative
                                 leave. The agreements allow for the use of administrative
                                 leave during a 30-day notice period prior to an employee
                                 being discharged or suspended for more than 14 days.

                                 Administrative leave, according to the Los Angeles District’s
                                 Labor Relations Guide to Corrective/Administrative Action
                                 Letters, could also be used when employees are sent for
                                 fitness-for-duty examinations. These examinations are
                                 conducted to ascertain whether an employee is medically or
                                 mentally capable of meeting his/her job requirements (or are
                                 fit for duty). However, there is no criterion regarding how
                                 long an employee can be on administrative leave during the
                                 time the Postal Service is determining whether the
                                 employee is fit for duty.

Employees on                     Of the 31 employees whose personnel records4 we
Administrative Leave             reviewed, 6 were nonbargaining and 25 were bargaining
                                 employees. We found no problems with the length of time
                                 the six nonbargaining employees were on administrative
                                 leave. However, we found that the 25 bargaining
                                 employees5 were on administrative leave beyond the time
                                 required by the collective bargaining agreements and were
                                 paid over $249,000 during this time. We found that
                                 employees were paid beyond the time period required by
                                 bargaining agreements because (1) management believed
                                 that disciplinary actions would be appealed to the Merit
                                 Systems Protection Board, (2) responsibility for monitoring
                                 was unclear, and (3) management did not use available
                                 tools to monitor administrative leave use.


4
 Personnel records include leave slips and labor relations files.
5
 Of the 25 bargaining employees, 15 were assigned to the Los Angeles District and 10 were assigned to the San
Diego District.



                                                        3
                                             Restricted Information
Assessment of Management Oversight of Administrative                               LC-AR-01-008
 Leave Used in Los Angeles and San Diego


                             Below are three examples of the condition noted:

                             •   A Los Angeles bargaining employee was on
                                 administrative leave for almost two years for making
                                 threatening remarks to two Postal Service supervisors
                                 on July 29, 1998. On July 31, 1998, an employee
                                 workplace intervention analyst recommended that a
                                 psychiatric fitness-for-duty examination be scheduled for
                                 the employee. However, the fitness-for-duty
                                 examination was not scheduled until almost 4 months
                                 later, in November 1998, and then again in
                                 December 1998. The employee failed to report for either
                                 examination.

                                 The employee reported for an examination in
                                 February 1999 and was reevaluated a year later on
                                 February 4, 2000. In April 2000, he was still declared
                                 unfit for duty and was given an option letter stating that
                                 he could return to work and perform light duty
                                 assignments. In May 2000, management determined
                                 that there were no light duty assignments available. In
                                 June 2000, the employee’s doctor said that he was fit for
                                 duty and, in July 2000, the Postal Service doctor
                                 concurred. The employee returned to work at the Postal
                                 Service the same month.

                                 Postal Service policy does not provide a time frame
                                 regarding how soon a fitness-for-duty examination
                                 should be scheduled after an incident or how long it
                                 should take for an employee to complete all
                                 examinations. However, the Handbook EL-311,
                                 Personnel Operations, Section 343, states that failure to
                                 report for a fitness-for-duty examination without
                                 acceptable reasons is just cause for disciplinary action;
                                 and repeated refusal is grounds for separation from the
                                 Postal Service.

                                 We discussed our observations with Los Angeles
                                 District officials, and they stated that: employees sent for
                                 fitness-for-duty examinations could be on administrative
                                 leave until a determination is made whether the
                                 employee is fit for duty. Determining if an employee is
                                 fit for duty can take a while – especially if the employee
                                 is obtaining several medical opinions. However,
                                 allowing employees to remain on administrative leave



                                                  4
                                       Restricted Information
Assessment of Management Oversight of Administrative                             LC-AR-01-008
 Leave Used in Los Angeles and San Diego


                                 for 2 years can be a problem because it is important for
                                 the Postal Service to have its employees at work. The
                                 process to deal with this employee took much longer
                                 than necessary. Employees should not be on
                                 administrative leave for extended periods of time.

                             •   A Los Angeles bargaining employee was on
                                 administrative leave for 82 days, beginning
                                 February 1999. Not only was he on administrative leave
                                 beyond the 30-day notice period, he was also on leave
                                 beyond his effective date of removal. According to the
                                 Employee and Labor Relations Manual, the effective
                                 date of separation/removal is the last day the employee
                                 is carried on the rolls. A labor relations manager
                                 informed us that an employee is not allowed to remain
                                 on administrative leave after his/her effective date of
                                 removal.

                                 This employee was charged with failure to protect and
                                 secure Postal Service mail and causing loss of
                                 registered mail in 1999. On March 5, 1999, a notice of
                                 proposed removal was issued. This letter stated that
                                 the employee would be removed from employment 30
                                 days after he received the letter, which occurred on
                                 March 10, 1999. However, on May 7, 1999, another
                                 letter was issued advising the employee that his
                                 effective date of removal was to be May 12, 1999.
                                 Postal Service records, however, showed that the
                                 employee remained on administrative leave until
                                 June 1999.

                                 On June 14,1999, the employee appealed his
                                 suspension to the Merit Systems Protection Board.
                                 During the appeals process, from June to September,
                                 the employee was placed in a nonduty/nonpay status.




                                                                (b) (2)




                                                  5
                                       Restricted Information
Assessment of Management Oversight of Administrative                            LC-AR-01-008
 Leave Used in Los Angeles and San Diego



                                 At the very least, Postal Service management should
                                 have removed the employee on May 12, 1999, his
                                 effective date of removal. If this had been done, the
                                 employee would probably have appealed to the Merit
                                 Protection Systems Board sooner and the case may not
                                 have gone until September 1999. We discussed our
                                 observations with the labor relations manager, Los
                                 Angeles District, and he stated that this was a
                                 management oversight and the employee was on
                                 administrative leave longer than he should have been.

                             •   A San Diego bargaining employee was on
                                 administrative leave for 71 days. Not only was he on
                                 administrative leave beyond the 30-day notice period,
                                 he was also on leave beyond his effective date of
                                 removal. The employee was charged with
                                 unacceptable conduct for removing property from the
                                 residence of a Postal Service customer in September
                                 1999. On October 20, 1999, a notice of proposed
                                 removal was issued. This letter stated that the removal
                                 of the employee was to be implemented 30 days after
                                 the receipt of the letter. Based on the employee’s
                                 records, we could not determine when the employee
                                 actually received the October 20, 1999, letter.

                                 Subsequently, on November 16, 1999, a letter was
                                 issued advising the employee that his effective date of
                                 removal was to be December 20, 1999. Postal Service
                                 records, however, showed that the employee remained
                                 on administrative leave until January 2000. The
                                 employee, stating that he was a veteran, appealed his
                                 suspension to the Merit Systems Protection Board on
                                 January 18, 2000. During the appeals process, the
                                 employee was placed in a nonduty/nonpay status. On
                                 April 7, 2000, the Merit Protection Systems Board
                                 dismissed the case because the employee was not a
                                 veteran. Additionally, the employee filed a grievance
                                 against the Postal Service, and on April 11, 2000, the
                                 Postal Service and the National Association of Letter
                                 Carriers reached a pre-arbitration settlement agreement
                                 decision.


                                                                          (b) (2)


                                                  6
                                       Restricted Information
Assessment of Management Oversight of Administrative                              LC-AR-01-008
 Leave Used in Los Angeles and San Diego




                                                                                        ,

                                                   (b) (2)
                                 At the very least, management should have removed the
                                 employee on December 20, 1999, his effective date of
                                 removal. We discussed our observations with the
                                 postmaster, Palm Springs, and he stated that he was
                                 unsure why this employee remained on administrative
                                 leave beyond the 30-day notice period and his effective
                                 date of removal.

Merit Systems                According to labor relations specialists in the Los Angeles
Protection Board             District, management allowed preference eligible bargaining
Avoidance                    employees (veterans) to remain on administrative leave
                             beyond the 30-day notice period because the Postal Service
                             did not want veteran employees to appeal suspensions or
                             discharges to the Merit Systems Protection Board.
                             According to the collective bargaining agreements, a
                             veteran, who chooses to appeal a suspension or discharge
                             to the Merit Systems Protection Board, rather than through
                             the Postal Service’s grievance-arbitration procedure, shall
                             remain on the rolls in a nonpay status (such as leave
                             without pay) until disposition of the case either by settlement
                             or through exhaustion of his/her Merit Systems Protection
                             Board rights.




                                              . (b) (2) Of the 25 bargaining employees
                             reviewed, 18 were veterans.

Responsibility for           Postal Service employees seemed to be unsure who was
Monitoring Unclear           responsible for overseeing administrative leave use and
                             monitoring the amount of time employees were on
                             administrative leave. Although we did not find criteria or
                             guidance stating which office is responsible for overseeing
                             and monitoring administrative leave use, time and
                             attendance policies clearly state that supervisors are
                             responsible for approving all leave taken, which must be




                                                  7
                                       Restricted Information
Assessment of Management Oversight of Administrative                              LC-AR-01-008
 Leave Used in Los Angeles and San Diego


                             documented on a leave slip. We discussed our
                             observations with Postal Service employees and their
                             comments are as follows:

                             •   According to customer service/plant supervisors and
                                 timekeepers, extended administrative leave is mainly the
                                 result of disciplinary problems and is usually handled in
                                 conjunction with supervisors and labor relations
                                 employees. The labor relations office sometimes issues
                                 memoranda, telling supervisors to place employees on
                                 administrative leave until further notice. Labor relations
                                 employees have specified the length of time to continue
                                 employees on administrative leave and authorized
                                 timekeepers to continue administrative leave beyond the
                                 30-day notice period.

                             •   According to labor relations employees, the labor
                                 relations office is primarily a support system for Postal
                                 Service management and may only recommend that an
                                 employee be placed on administrative leave.

                             Various officials were under the assumption that it was not
                             their responsibility to administer and monitor administrative
                             leave use. This created confusion and as a result,
                             management was not effectively monitoring administrative
                             leave use and employees remained out for extended
                             periods of time. As mentioned above, time and attendance
                             policies clearly state that supervisors are responsible for
                             approving and authorizing all leave taken, and not labor
                             relations employees.

Tools to Monitor             Management did not always use available tools to monitor
Administrative Leave         administrative leave use. Leave slips were not reviewed
Not Used                     and approved for all leave taken. According to the
                             Employee and Labor Relations Manual, all absences
                             (authorized and unauthorized) must be recorded on the
                             PS Form 3971, Request for, or Notification of Absence (or
                             leave slip). According to the Time and Attendance
                             Handbook F-21, the reason for using the administrative
                             leave category “Other Paid Leave” should be thoroughly
                             explained in the remarks block of the leave slip. According
                             to Postal Service employees, some employees on
                             administrative leave simply got “lost in the shuffle” and
                             management forgot about them. If management reviewed
                             and approved leave slips as required, employees on leave



                                                  8
                                       Restricted Information
Assessment of Management Oversight of Administrative                              LC-AR-01-008
 Leave Used in Los Angeles and San Diego


                             would be less likely forgotten–signing a leave slip would
                             serve as a reminder that the employee was on leave.

                             In addition, some supervisors informed us that, although
                             reports were available, the reports were not always used to
                             monitor administrative leave use. For example, the Sick
                             Leave, Leave Without Pay, and Other Leave Usage Report
                             captures all leave used by employees. This report is printed
                             every pay period and lists all employees by pay location,
                             who used sick leave, leave without pay, or other leave
                             during the reporting pay period. This report provides a total
                             for each leave type for each pay location. According to
                             some supervisors, this report was used to monitor sick
                             leave and leave without pay, but not administrative leave.

Employees Paid, But          As a result of a lack of effective management oversight,
Not Working                  25 bargaining employees were on administrative leave
                             beyond the time required and were paid over $249,000 for
                             the time beyond the 30-day period. Furthermore, while on
                             administrative leave, these employees continued to accrue
                             annual and sick leave, and receive health benefits – at a
                             cost to the Postal Service, which should not have been
                             incurred. These employees should have been terminated or
                             should have been in a nonpay status.

                             A sizable workforce is required to process the mail. Having
                             the necessary employees available for work when
                             scheduled—three tours or shifts, operating 24 hours a day,
                             7 days a week—is important to meet processing deadlines
                             and, in turn, customer’s expectations. Employees’
                             absences, particularly for long, extended periods of time—
                             could potentially affect delivery operations.

Recommendation               We recommend the acting vice president, Pacific Area
                             Operations, immediately review all districts’ administrative
                             leave use, and direct Los Angeles and San Diego District
                             managers to:

                             1. Remove, as appropriate, bargaining-unit employees from
                                administrative leave who are beyond the required 30-
                                calendar day notice period.




                                                  9
                                       Restricted Information
Assessment of Management Oversight of Administrative                              LC-AR-01-008
 Leave Used in Los Angeles and San Diego



Management’s                     Management concurred with the intent of this
Comments                         recommendation and stated that they would remove
                                 employees from administrative leave, as appropriate.
                                 Management noted that a review was conducted of all
                                 employees on administrative leave in the San Diego and
                                 Los Angeles Districts. The review disclosed the use of
                                 administrative leave was appropriate and that only one
                                 employee’s administrative leave would exceed the 30-
                                 day requirement. Management interpreted policy as
                                 allowing employees to be on administrative leave
                                 beyond the 30-day notice period; however, stated they
                                 would ensure a sound business reason for placing an
                                 employee on administrative leave beyond the 30-day
                                 period.



                                                                   (b) (2)

Evaluation of                We believe that management’s planned or implemented
Management’s                 actions are responsive to the recommendation and address
Comments                     the issues identified in the report. Specifically,
                             management’s commitment to ensure that there is a sound
                             business reason and justification for leaving employees on
                             leave beyond the 30-day period is responsive to the
                             recommendation if fully put into practice.




                                                   (b) (2)

Recommendation               We recommend the acting vice president, Pacific Area
                             Operations, immediately review all districts’ administrative
                             leave use, and direct Los Angeles and San Diego District
                             managers to:

                             2. Clarify and disseminate policies and procedures for
                                administering and overseeing administrative leave use to
                                include a review process that (a) ensures minimal use of
                                administrative leave, and (b) identifies who is
                                responsible for monitoring administrative leave.



                                                 10
                                       Restricted Information
Assessment of Management Oversight of Administrative                              LC-AR-01-008
 Leave Used in Los Angeles and San Diego




Management’s                 Management concurred with this recommendation and
Comments                     stated they are developing and implementing policies,
                             effective April 2001.

Evaluation of                Management’s comments are responsive to our finding and
Management’s                 recommendation.
Comments

Recommendation               We recommend the acting vice president, Pacific Area
                             Operations, immediately review all districts’ administrative
                             leave use, and direct Los Angeles and San Diego District
                             managers to:

                             3. Require all managers and supervisors to use available
                                tools, such as the Sick Leave, Leave Without Pay, and
                                Other Leave Usage Report, to record and monitor
                                administrative leave usage.

Management’s                 Management concurred with our recommendation and
Comments                     informed us that the Human Resources and Finance Offices
                             would create an administrative leave usage report available
                             April 2001. Managers and supervisors will use this report to
                             monitor administrative leave usage.

Evaluation of                Management’s comments are responsive to our finding and
Management’s                 recommendation.
Comments




                                                 11
                                       Restricted Information
Assessment of Management Oversight of Administrative                              LC-AR-01-008
 Leave Used in Los Angeles and San Diego




Leave Slips Were             Managers and supervisors did not complete leave slips for
Incomplete or                all administrative leave taken. Specifically, we found that
Missing                      leave slips documenting approval for administrative leave
                             were either missing or incomplete for 30 of the
                             31 employees we reviewed. This occurred because
                             management did not comply with time and attendance
                             policies.

                             Further, we found that most of the leave slips on file were
                             incomplete because they lacked the required information:

                             •   The signatures of the supervisor, employee, and the
                                 person recording the absence were missing.

                             •   The number of hours and dates requested were not
                                 annotated.

                             •   The reason the employee was on administrative leave
                                 was not recorded in the remarks block.

                             As a result, the Postal Service lacked the written proof that
                             the leave taken was authorized.

Compliance with Time         We discussed our observations with Postal Service officials
and Attendance               and found that although they understood the requirement to
Policies                     complete leave slips, they simply did not comply with time
                             and attendance policies. For example, a postmaster, San
                             Diego District commented that when employees are placed
                             on administrative leave, there is not much formality and
                             everything is not written down because issues are
                             communicated verbally. The postmaster also stated that
                             supervisors “sometimes” complete leave slips. Further, a
                             station manager and supervisor stated that usually, leave
                             slips are not completed for administrative leave.

Management Lacked            As a result of incomplete and missing leave slips,
Proof That Leave             management had no proof that the leave taken was
Taken was Authorized         authorized. Further, without accurate and complete leave
                             slips, the Postal Service lacks the support needed to defend
                             its position and decision to place the employee on
                             administrative leave, if ever challenged.




                                                 12
                                       Restricted Information
Assessment of Management Oversight of Administrative                               LC-AR-01-008
 Leave Used in Los Angeles and San Diego




Recommendation               We recommend the acting vice president, Pacific Area
                             Operations, direct Los Angeles and San Diego District
                             managers to:

                             4. Ensure that employees and supervisors complete all
                                leave slips correctly, without errors or omissions; and
                                forward all completed leave slips to timekeepers in
                                accordance with established policies and procedures.

Management’s                 Management agreed with our recommendation and
Comments                     informed us that instructions will be sent to all timekeepers
                             advising them that administrative leave cannot be
                             processed without a properly completed leave slip. These
                             instructions will be distributed to timekeepers in April 2001.

Evaluation of                Management’s comments are responsive to our finding and
Management’s                 recommendation.
Comments




                                                 13
                                       Restricted Information
Assessment of Management Oversight of Administrative            LC-AR-01-008
 Leave Used in Los Angeles and San Diego


                   APPENDIX. MANAGEMENT’S COMMENTS




                                                 14
                                       Restricted Information
Assessment of Management Oversight of Administrative            LC-AR-01-008
 Leave Used in Los Angeles and San Diego




                                                 15
                                       Restricted Information
Assessment of Management Oversight of Administrative            LC-AR-01-008
 Leave Used in Los Angeles and San Diego




                                                 16
                                       Restricted Information
